<html>
<title> - NOMINATION OF ODESSA F. VINCENT</title>
<body><pre>[Senate Hearing 107-259]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-259
 
                    NOMINATION OF ODESSA F. VINCENT
=======================================================================




                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                 ON THE

    NOMINATION OF ODESSA F. VINCENT TO BE AN ASSOCIATE JUDGE OF THE 
               SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

                               __________

                            NOVEMBER 6, 2001
                               __________

      Printed for the use of the Committee on Governmental Affairs











                        U.S. GOVERNMENT PRINTING OFFICE
77-435                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
                     Cynthia Gooen Lessen, Counsel
              Jason M. Yanussi, Professional Staff Member
Marianne Clifford Upton, Staff Director and Chief Counsel, Subcommittee 
                                   on
 Oversight of Government Management, Restructuring and the District of 
                                Columbia
         Hannah S. Sistare, Minority Staff Director and Counsel
                  Johanna, L. Hardy, Minority Counsel
 Mason C. Alinger, Minority Professional Staff Member, Subcommittee on
 Oversight of Government Management, Restructuring and the District of 
                                Columbia
                     Darla D. Cassell, Chief Clerk












                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Durbin...............................................     1

                               WITNESSES
                       Tuesday, November 6, 2001

Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia...........................................     1
Odessa F. Vincent to be an Associate Judge of the Superior Court 
  of the District of Columbia....................................     2
    Biographical and financial information.......................     5











    NOMINATION OF ODESSA F. VINCENT TO BE AN ASSOCIATE JUDGE OF THE 
                  DISTRICT OF COLUMBIA SUPERIOR COURT

                              ----------                              


                       TUESDAY, NOVEMBER 6, 2001

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:48 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Richard J. 
Durbin, presiding.
    Present: Senator Durbin.
    Senator Durbin. The Committee on Governmental Affairs will 
come to order. Good afternoon and welcome. Today, the Senate 
Committee on Governmental Affairs holds a hearing to consider 
the nomination of Odessa F. Vincent to be an associate judge in 
the District of Columbia Superior Court.
    On May 24, President Bush nominated Odessa F. Vincent to 
fill a vacancy created by the retirement of Judge Evelyn Queen. 
Ms. Vincent is currently the chief of the narcotics section of 
the U.S. Attorneys Office for the District of Columbia. She has 
been a supervisory Assistant U.S. Attorney since 1995. Her 
prior experience includes work as a trial attorney on the 
National Church Arson Task Force, and attorney advisor to the 
Drug Enforcement Administration. She is a 1984 graduate of 
Howard University School of Law.
    I am certain this is a very special day for you, Ms. 
Vincent, as you contemplate this next step in your legal 
career. Do you have any family members or colleagues or friends 
which you would like to introduce at this point?
    Ms. Vincent. Yes, Senator, I do. I do have colleagues and 
friends that are here with me. Patricia Smoot, Ann Rosenfield, 
Betty Goldman, and Steve and Carol Wilkinson.
    Senator Durbin. I thank them for joining us, too, and 
showing encouragement for this important day in your life.
    At this point I would also like to welcome my friend, 
Congresswoman Eleanor Holmes Norton of the District of Columbia 
who is here to offer a few words of introduction on behalf of 
Ms. Vincent. Congresswoman Norton, please proceed.

TESTIMONY OF HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS 
                 FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much, Mr. Chairman. We have 
pressed you into service for yet another D.C. matter and I 
appreciate your work on this nomination. I am very pleased to 
introduce to you, Odessa Vincent. Ms. Vincent is essentially a 
career U.S. Attorney, a career trial attorney, which is perhaps 
the best preparation for becoming a trial judge in our D.C. 
Superior Court. Very well prepared to become a member of the 
court.
    Ms. Vincent has spent most of her career as an Assistant 
U.S. Attorney, rising to be chief of the narcotics section of 
the office of the U.S. Attorney here in the District of 
Columbia. Her specialty in drug matters was such that she was 
detailed for a couple of years to the Drug Enforcement 
Administration office, rising there to be chief of the criminal 
law section. Concurrent with her duties in the Justice 
Department at the Drug Enforcement Administration she served as 
a trial attorney with the National Church Arson Task Force 
which was specially created to deal with the arsons of churches 
and religious properties.
    We are not only proud of Ms. Vincent's distinguished career 
and excellent preparation for the bench, we are especially 
proud that she is a graduate of our own State university, the 
University of the District of Columbia, and of Howard 
University in 1984. I am very pleased to recommend her to you, 
Mr. Chairman.
    Senator Durbin. Thank you very much, Congresswoman Norton.
    It is the custom and the tradition in this Committee for us 
to swear in our witnesses, Ms. Vincent. If you would be kind 
enough to rise and raise your right hand? Do you swear that the 
testimony you are about to give is the whole truth, and nothing 
but the truth, so help you, God?
    Ms. Vincent. I do.
    Senator Durbin. Thank you. Let the record reflect that the 
witness answered in the affirmative. If you have any opening 
remarks, I invite you to make them at this point in time.

 TESTIMONY OF ODESSA F. VINCENT\1\ TO BE AN ASSOCIATE JUDGE OF 
         THE SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Vincent. Thank you. Just briefly, I would like to say 
that I am honored to be here testifying today. I would like to 
thank the President for nominating me to be an associate judge 
of the Superior Court. I would like to thank you, Senator, for 
having this hearing, and the Committee for moving this matter 
forward. I can only say that for me this is just a very great 
honor and I hope, if it should pass, that I can serve well for 
the citizens of the District.
---------------------------------------------------------------------------
    \1\ Biographical and financial information appears in the Appendix 
on page 5.
---------------------------------------------------------------------------
    Senator Durbin. Thank you. You have been recommended not 
only by the President, which is high praise, but also by the 
District's judicial nominating committee, and gone through the 
customary investigation. Since your nomination was received in 
the Senate you have completed a thorough biographical 
questionnaire, which may have been one of the most daunting 
assignments since your law exam that we all considered many 
years ago. The Committee staff has conducted background checks 
and interviewed you, and I have reviewed your responses to the 
questionnaire.
    I am going to ask you three standard questions that are 
part of this process. First, is there anything that you are 
aware of in your background that might present a conflict of 
interest with the duties of the office to which you have been 
nominated?
    Ms. Vincent. No.
    Senator Durbin. Second, do you know of any reason, personal 
or otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Vincent. No.
    Senator Durbin. Third, do you know of any reason, personal 
or otherwise, that would in any way prevent you from serving 
the full term for the office to which you have been nominated?
    Ms. Vincent. No.
    Senator Durbin. I once observed at an earlier hearing when 
we were filling a vacancy in the District of Columbia that this 
is a long term that you are being appointed to, and of course, 
since we only have 6-year terms, we are very envious here on 
Capitol Hill. But I also recall many years ago when I was in 
private practice that there were certain judges who were a joy 
to appear before and some who were not. I felt that there was a 
difference in temperament in some judges rather than others. I 
wonder if you could comment on what you consider to be the 
temperament of a judge that we should look for in making this 
appointment?
    Ms. Vincent. Senator, I think you want to look for a judge 
who is always well prepared, who is familiar with the cases 
that will come before him or her, and that is, as much as a 
judge can be, familiar with the parties and the litigants. I 
think it helps a judge to move his or her calendar forward more 
expeditiously if they are completely in sync with what is going 
on in their courtroom. An intelligent, well-prepared judge, I 
think, is the best kind of judge that you could appoint.
    Senator Durbin. Now I would like to address the issue of 
humility, because many who ascend to the bench think they are 
ascending even higher in life. I wonder if you would comment on 
that aspect of judicial temperament.
    Ms. Vincent. Senator, all I can say to you is that I am 
completely humbled by this experience. The judges that I have 
known, a number of judges that sit on the Superior Court I have 
known before they got to the Superior Court bench and I can 
only say that they take their responsibility, as would I, very 
seriously and realize that how they are perceived by the public 
and by the litigants that come before them is very, very 
important. They, like I, initially were very humbled and remain 
very humbled by the experience.
    Senator Durbin. That is a good response. Some of my 
colleagues on the Committee who are voting at this moment may 
have written questions that they may submit at some later 
point, but I do not have any further questions. I want to thank 
you for your responses. They were appropriate and encouraging. 
I thank your friends and colleagues for joining you today for 
this hearing.
    The next step in the process will be the prompt 
consideration of your nomination at a full Committee markup in 
the very near future. With that, this hearing is adjourned.
    Ms. Vincent. Thank you.
    Senator Durbin. Thank you.
    [Whereupon, at 2:55 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T7435.001

[GRAPHIC] [TIFF OMITTED] T7435.002

[GRAPHIC] [TIFF OMITTED] T7435.003

[GRAPHIC] [TIFF OMITTED] T7435.004

[GRAPHIC] [TIFF OMITTED] T7435.005

[GRAPHIC] [TIFF OMITTED] T7435.006

[GRAPHIC] [TIFF OMITTED] T7435.007

[GRAPHIC] [TIFF OMITTED] T7435.008

[GRAPHIC] [TIFF OMITTED] T7435.009

[GRAPHIC] [TIFF OMITTED] T7435.010

[GRAPHIC] [TIFF OMITTED] T7435.011

[GRAPHIC] [TIFF OMITTED] T7435.012

[GRAPHIC] [TIFF OMITTED] T7435.013

[GRAPHIC] [TIFF OMITTED] T7435.014

[GRAPHIC] [TIFF OMITTED] T7435.015

[GRAPHIC] [TIFF OMITTED] T7435.016

[GRAPHIC] [TIFF OMITTED] T7435.017

[GRAPHIC] [TIFF OMITTED] T7435.018

[GRAPHIC] [TIFF OMITTED] T7435.019

[GRAPHIC] [TIFF OMITTED] T7435.020

                                   - 

</pre></body></html>
